            DEPARTMENT OF

            ENERGY
OFFICE OF
INSPECTOR
GENERAL

            STRATEGIC PLAN
            FISCAL YEARS 2014 – 2019

               “Strengthening the integrity,
               economy, and efficiency of the
               Department’s programs and
               operations.”
                                    INTRODUCTION

The Inspector General Act of 1978, as amended, established an independent statutory
Inspector General at the Department of Energy (Department) that is responsible for:

      Conducting independent and objective audits, investigations, and other reviews;
      Promoting economy, efficiency, and effectiveness in the administration of
       Department programs;
      Preventing and detecting fraud, waste, abuse, and mismanagement related to
       Department programs and operations; and
      Informing the Secretary and Congress about problems and deficiencies in
       Department programs and operations and the need for corrective action.

The Inspector General has authority to inquire into all Department programs and activities
as well as the related activities of persons or parties associated with Department grants,
contracts, or other agreements. As part of its independent status, the Inspector General
provides the Secretary with an impartial set of "eyes and ears" to evaluate management
practices. As a fact-finding organization for high profile, controversial matters, the
Inspector General is able to apprehend those attempting to defraud the Government and
protect the interest of the U.S. taxpayer.

                                         VISION


            To be a highly effective organization that promotes positive change.


                                        MISSION


  To strengthen the integrity, economy and efficiency of the Department’s programs and
                                       operations.




                                           PAGE 1
ENERGY INSPECTOR GENERAL                                       FY 2014 – FY 2019 STRATEGIC PLAN
                           ORGANIZATIONAL RESPONSIBILITIES

The Office of Inspector General is headquartered in the Washington, DC and has 12 field
offices located throughout the country. The organization is responsible for conducting
audits, inspections and investigations and for receiving and acting upon allegations
received through the Office of Inspector General Hotline.

AUDITS are conducted on Department programs and operations. Efforts are concentrated
on providing reliable and credible financial and performance information to senior
management, Congress and the U.S. taxpayer. A risk-based process is used to identify
areas for audit coverage based on known or emerging risks and the greatest
vulnerabilities. This process ensures comprehensive coverage over Department
organizations, programs and operations while meeting the Department’s evolving needs.
Audit resources are also directed toward meeting statutory audit responsibilities in the
financial and information technology areas.

INSPECTIONS focus on allegations received from the Office of Inspector General Hotline,
special inquiries raised by Congress or senior Department officials, and performance
issues. Efforts are concentrated on management reform within the Department by
evaluating and providing recommendations to improve program performance. The
Inspection function is designed to promptly address concerns and allegations received
during the course of the year. Inspection priorities are based on the significance of the
issue and the potential impact on Department programs and operations.

INVESTIGATIONS address alleged violations of law that impact Department programs,
operations, facilities and personnel. Priority is given to investigations of suspected
violations of criminal and civil statutes, as well as serious administrative misconduct.
Investigations are also used to identify opportunities for improving the economy and
efficiency of Department programs and operations by identifying recommendations for
positive change. Investigators work closely with Department of Justice prosecutors and
other Federal, State, and local law enforcement organizations.

ALLEGATIONS are received through the Office of Inspector General Hotline. The Hotline
facilitates the reporting and resolution of allegations involving Department programs and
activities. Allegations are received from Department employees, contractors and the
general public. In addition, whistleblower disclosures made by employees and contractors
help root out fraud, waste, and abuse, and protect public health and safety. The Office of
Inspector General Whistleblower Ombudsman educates Department employees about
prohibitions on retaliation for whistle blowing, as well as employees’ rights and remedies if
anyone retaliates against them for making a whistleblower disclosure.

More information about the Office of Inspector General work can be found at:
http://energy.gov/ig/office-inspector-general.




                                            PAGE 2
ENERGY INSPECTOR GENERAL                                        FY 2014 – FY 2019 STRATEGIC PLAN
                           STRATEGIC GOALS AND MEASURES

                    GOAL 1                                     MEASURES
Provide independent, accurate, timely, and          Percentage of reports issued with
balanced information to the Department,             recommendations/suggestions
Congress and other key stakeholders in              Percentage of recommendations
order to promote economy and efficiency in          accepted
Department programs and operations.                 Percentage of final reports issued
                                                    within 60 days of receipt of
                                                    management comments

                    GOAL 2                                     MEASURES
Work with the Department, prosecutors               Number of fraud awareness briefings
and others to hold recipients and overseers         conducted to educate and inform
of Department funds accountable for                 Department employees, contractors,
actions that result in fraud, waste and/or          and fund recipients
abuse.                                              Average number of days to issue an
                                                    Investigative Report to Management
                                                    Percentage of cases presented for
                                                    prosecutorial consideration that are
                                                    accepted for further action
                                                    Hotline complaints are referred to
                                                    responsible entities in a timely
                                                    manner following a disposition
                                                    decision

                    GOAL 3                                     MEASURES
Build and maintain an efficient and                 Percentage of required employee
effective organization that fulfills its            performance management system
mission and maintains a highly qualified            actions conducted within prescribed
diverse workforce.                                  timeframes
                                                    Percentage of Individual
                                                    Development Plans established
                                                    within prescribed timeframes
                                                    Percentage of employees completing
                                                    mandatory training within
                                                    prescribed timeframes
                                                    A positive return for each tax dollar
                                                    invested in OIG activities




                                           PAGE 3
ENERGY INSPECTOR GENERAL                                     FY 2014 – FY 2019 STRATEGIC PLAN
